                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A01110038
                                                                                I          Page 1 of 2



      We received a phone call from the Chief Research Officer (CRO) of a public university'
      informing us of an ongoing administrative investigation concerning a recent NSF proposal. The
      university was investigating an allegation that two university professors2submitted a proposal3to
      NSF which: (1) failed to seek permission from another NSF-sponsored research project to use its
      products as a part of the proposed research; (2) failed to give appropriate credit, via citation, to
      the research project and its principal investigators (complainants); and (3) damaged the research
      project's principal investigators ability to secure future funding for their research. We deferred
      our investigation while the university completed its investigation. The university completed its
      investigation promptly and forwarded its conclusions to us.

      We reviewed the university's report and determined that subject 1 had previously been a co-PI
      with the complainants on an NSF-funded research grant4to develop computer-based instruction
      materials. However, subject 1 voluntarily withdrew from the project not long after NSF-funded
      the grant and he did not materially contribute to the project. In late 2000, the subjects submitted
      a proposal to create computer-based educational materials. The subjects stated in their proposal
      that products from the complainants' grant would be "selected and recast" as a part of the their
      broader project. However, the subjects did not provide any credit or citation to the complainants'
      work nor had they formally requested permission to use those products as a part of their
      proposal.

      The university's investigation committee determined that the subjects had committed
      "misconduct" because it "was clearly a violation of professional ethics to fail to acknowledge
      and respect the creative ownership rights" of the complainants. The committee felt it was "not in
      a position to judge" whether the subjects' actions were careless or deliberate in nature. Although
      they agreed that the subjects committed an ethical error, they drew upon a legal parallel
      describing the subjects' actions "as more closely resembling a misdemeanor offense than a
      felony" and that their actions "fall substantially short of belonging to the class of more




                         Agent                   Attorney                Supervisor                 AIGI

  Sign / date
*.
 21                                            NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

  Case Number: A01110038                                                                 Page 2 of 2



       reprehensible offenses." The university's action in response to the committee's report was to
       place written letters of admonishment into the subjects' personnel files.


       NSF does require all principal investigators to maintain the highest ethical standards when
       developing and submitting a proposal to NSF. We agree that the subjects did not employ the
       highest levels of scholarly standards by not providing due recognition of the complainants or by
       not seeking permission for using their products before submitting the proposal. Although the
       university committee concluded that the subjects committed "misconduct", it appears the
       committee did so without considering the subjects' state of mind. In our view, the subjects'
       actions in this case, although inappropriate and careless, do not represent a "serious deviation
       from accepted practices" constituting misconduct under NSF's definition (45 CFR 5 689.1
       (a)(l)). We believe our decision is consistent with the findings of the university committee and
       with the actions taken by the university.

              Accordingly, this case is closed and no further actions will be taken.
